 

Gn the Supreme Court of the Huited States

AL CANNON, SHERIFF, PETITIONER

BRODERICK WILLIAM SEAY, JR., RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT

CERTIFICATE OF SERVICE

JASON ScoTT LUCK

Counsel of Record
Garrett Law Offices, LLC
1075 E. Montague Ave.
North Charleston, SC 29405
(843) 554-5515
jluck@garrettlawsc.com

SARA ALEXANDRA TURNER

The Law Office of Sara A. Turner, LLC
105 Wappoo Creek Drive, Suite 1A
Charleston, SC 29412

(843) 277-2431
sara@saraturnerlaw.com

Attorneys for Respondent

 
CERTIFICATE OF SERVICE
I, the undersigned, hereby certify one copy of the Motion to Proceed in forma
pauperis, Brief in Opposition to Petition for Writ of Certiorari, and Appendix were

placed in the United States Mail, first class, postage-prepaid, on November 14, 2019,

addressed to:

Melody J. Brown

Office of Attorney General
State of South Carolina

P.O. Box 11549

Columbia, SC 29211

(803) 734-6305

Attorney of Record for Petitioner

I further certify one unbound and ten copies of the Motion to Proceed in forma
pauperis, Brief in Opposition to Petition for Writ of Certiorari, and Appendix were
placed in the United States Mail, first class, postage-prepaid, on November 14, 2019,
addressed to:

Supreme Court of the United States
ATTN: Clerk of Court

1 First Street, NE

Washington, DC 20543

All parties required to be served have been served. z

JASON ScoTT LUCK
Counsel of Record
Garrett Law Offices, LLC

 

 

1075 E. Montague Ave.
SWORN TO AND SUBSCRIBED BEFORE ME 075 E. Montague Ave

. North Charleston, SC 29405
This //’" Day of November, 2019 (843) 554-5515

GAGE —_ssay wri uekOearrettlawse, com
MET Igy,
NOTARY PUBLIC FOR SOUTH 1 CAROLINA SAYER

Sante Mes R dent
My Commission Expires: [ Bo e / Zo 26$ SOO ot for Responden

 

 

 
